STATEOFNEWYORK
OFFICE OF THE ATTORNEY GENERAL

BARBARA D. UNDERWOOD

LETITIA }AMES
ATTORNEY GENERAL

SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

June 10, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: United Parcel Service, Inc. v. New York, et al., No. 19-1306
Dear Mr. Harris:
I write on behalf of respondent the State of New York to request an extension
of time to oppose the petition for a writ of certiorari in this matter. The current
deadline is June 19, 2020, and respondent respectfully seeks an extension of thirty
days, up to and including July 20, 2020, to file its opposition. The extension is
warranted because of the press of other matters and the additional time it will take
for the State to prepare its opposition in light of the complications created by the
COVID-19 pandemic.
Petitioner consents to this request. Counsel for respondent the City of New
York also intends to seek a thirty-day extension to file its opposition.
Thank you very much for your consideration,
Respectfully submitted,

Steven C. Wu
Deputy Solicitor General

1'

28LIBERTYSTREET,NEWYORK, NY 10005-1400 • PHONE(212)416-8020 • FAX(212)416-8962 *NOTFORSERVICEOFPAPERS
WWW.AG.NY.GOV

Cc:

Mark A. Perry
Gibson Dunn & Crutcher, LLP
1050 Connecticut Ave., NW
Washington, D.C. 20036
Counsel for Petitioner
Zachary W. Carter
Richard P. Dearing
New York City Law Department
100 Church Street
New York, NY 10007
Counsel for the City of New York

2

